IN THE SUPREME COURT OF THE UNITED STATES
No. 19-422

PATRICK J. COLLINS, et al., Petitioners,
Vv.

STEVEN T. MNUCHIN, ef al., Respondents.
CERTIFICATE OF COMPLIANCE

I, Richard A. Samp, counsel for amicus curiae The New Civil Liberties Alliance, and a
member of the bar of this Court, hereby certify pursuant to Supreme Court Rule 22(g) and (h)
that this amicus curiae brief complies with the word limitations imposed by those rules.
According to the word processing system used to prepare the brief (WordPerfect X5), the word

count of the brief is 6,551, not including the cover, table of contents, table of authorities, and

Sl A

Richard A. Samp
New Civil Liberties Alliance
1225 Nineteenth Street, NW
Washington, DC 20036
202-869-5210

signature block.

  

Dated: September 23, 2020
